v

No.
Supreme c~
ourt, u.S.
BLED

IN THE

Supreme Court of tfje ®ntteb H>tate^N 1 8 2021

2£BCepFTHE CLERK

AURA MOODY on behalf of her minor child, JM,
Petitioner,
JULIAN MOODY,
Plaintiff,
v.

NATIONAL FOOTBALL LEAGUE,
Respondent.

On Petition for Writ of Certiorari to the
U.S. Circuit Court for the Second Circuit

PETITION FOR WRIT OF CERTIORARI

AURA MOODY
Pro Se Petitioner
112-26 197th Street
Saint Albans, NY 11412
(718) 465-3725
quinonesmoody@aol.com
June 18, 2021

QUESTIONS PRESENTED FOR REVIEW
This Petition for a Writ of Certiorari gives this Court an opportunity to decide
important questions of deferral law regarding statutory standing doctrine in the
context of a claim that is based on constitutional rights violations. The questions
presented below are essential and deserve the Supreme Court of the United States’
attention. The questions for this Court are:
1. WHETHER THE COURT OF APPEALS HAD THE AUTHORITY TO DISMISS
THE APPEAL BECAUSE IT ALLEGEDLY “LACKS AN ARGUABLE BASIS
EITHER IN LAW OR IN FACT” WITHOUT GIVING PETITIONER THE
OPPORTUNITY TO PRESENT HER EVIDENCE AND BE HEARD ON THE
ISSUES PRESENTED TO THEM FOR REVIEW ON THE MERITS, WITHOUT
ENFORCING RESPONDENT’S COMPLIANCE WITH FEDERAL RULES OF
APPELATE PROCEDURE (“FRAP”) AND COURT’S LOCAL RULES (“LOCAL
RULES”); AND WHETHER THESE ISSUES WERE PROPERLY ADDRESSED BY
THE COURT PRIOR TO RENDERING ITS DECISION?
2. WHETHER THE COURT OF APPEALS’ JUDGEMENT IS PROCEDURALLY
DEFICIENT AND

CONSTITUTIONALLY

INVALID

SINCE

IT

DENIED

PETITIONER’S MOTION FOR LEAVE TO AMEND THE CAPTION OF THE
CASE, ADD PARTIES, SUPPLEMENT THE PLEADINGS, COMPELL THE
DISCLOSURE-PRODUCTION

OF

DOCUMENTS

AND

RELIEF

FROM

JUDGMENT-ORDER (“MOTION FOR LEAVE TO AMEND”) OVERLOOKING
THE FACT THAT RESPONDENT DID NOT FILE AND SERVE A RESPONSE TO

1

THE MOTION IN DISREGARD OF FRAP AND LOCAL RULES, AND THE
COURT FAILED TO DEMAND A RESPONSE; WHETHER THE COURT
MISCARRIAGED JUSTICE BY NOT RENDERING A TIMELY DECISION ON
THE

MOTION;

AND

WHETHER

THESE

ISSUES

WERE

PROPERLY

ADDRESSED BY THE COURT PRIOR TO ITS DECISION ON PETITIONER’S
MOTION?
3. WHETHER THE DISTRICT COURT’S JUDGEMENT IS PROCEDURALLY
DEFICIENT

AND

CONSTITUTIONALLY

INVALID

PETITIONER’S MOTION TO VACATE JUDGMENT,
EVIDENCE AND

REOPEN THE

CASE

SINCE

IT

DENIED

INTRODUCE

NEW

(“MOTION TO VACATE

THE

JUDGMENT”) WITHOUT AFFORDING HER AN OPPORTUNITY TO BE HEARD
ON THE ISSUES PRESENTED TO THEM FOR REVIEW ON THE MERITS AND
RECEIVING RESPONDENT’S ANSWER TO THE MOTION; WHETHER THE
COURT FAILED TO ORDER A DEFAULT JUDGMENT GIVEN RESPONDENT’S
NON-COMPLIANCE WITH FEDERAL RULES OF CIVIL PROCEDURE (“FRCP”)
AND LOCAL RULES; WHETHER THE COURT FAILED TO ENFORCE
COMPLIANCE WITH FRCP AND LOCAL RULES BY NOT DEMANDING
RESPONDENT’S

ANSWER

AND

IMPOSING

SANCTIONS

FOR

SUCH

VIOLATIONS; WHETHER THESE ISSUES WERE ADDRESSED BY THE
DISTRICT COURT PRIOR TO RENDERING ITS DECISION; AND WHETHER
THESE ISSUES WERE PROPERLY REVIEWED AND ADDRESSED BY THE
CIRCUIT COURT ON APPEAL?

11

4. WHETHER THE COURT OF APPEALS’ JUDGMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID AS IT OVERLOOKED THE
FACT

THAT

RESPONDENT

DID

NOT

FILE

AND

SERVE

THE

ACKNOWLEDGMENT AND NOTICE OF APPEARANCE FORM IN DISREGARD
OF FRAP AND LOCAL RULES; WHETHER THE COURT FAILED TO ENFORCE
COMPLIANCE WITH FRAP AND LOCAL RULES BY NOT DEMANDING
RESPONDENT’S
VIOLATIONS;

ANSWER
AND

AND

WHETHER

IMPOSING
THESE

SANCTIONS

ISSUES

WERE

FOR

SUCH

PROPERLY

ADDRESSED BY THE COURT PRIOR TO RENDERING ITS JUDGMENT?
5. WHETHER THE COURT OF APPEALS’ JUDGMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID SINCE IT OVERLOOKED
THE FACT THAT RESPONDENT DID NOT FILE AND SERVE A BRIEFING
SCHEDULE; WHETHER THE COURT FAILED TO ENFORCE COMPLIANCE
WITH FRAP AND LOCAL RULES BY NOT DEMANDING RESPONDENT’S
ANSWER AND IMPOSING SANCTIONS FOR SUCH VIOLATIONS; AND
WHETHER THESE ISSUES WERE PROPERLY ADDRESSED BY THE COURT
PRIOR TO RENDERING ITS DECISION?
6. WHETHER THE COURT OF APPEALS’ JUDGEMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID AS IT OVERLOOKED THE
FACT THAT RESPONDENT DID NOT FILE AND SERVE A RESPONSE BRIEF
AND

APPENDIX;

WHETHER

THE

COURT

FAILED

TO

ENFORCE

COMPLIANCE WITH FRAP AND LOCAL RULES BY NOT DEMANDING

in

RESPONDENT’S
VIOLATIONS;

ANSWER
AND

AND

WHETHER

IMPOSING
THESE

SANCTIONS

ISSUES

WERE

FOR

SUCH

PROPERLY

ADDRESSED BY THE COURT PRIOR TO RENDERING ITS DECISION?
7. WHETHER THE DISTRICT COURT’S JUDGMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID AS IT OVERLOOKED THE
FACT THAT PETITIONER HAS ASSERTED HER OWN MERITORIOUS CLAIMS
(DIFFERENT FROM JULIAN’S) IN PARAGRAPH “22” OF THE AMENDED
COMPLAINT, AND THAT HER INDIVIDUAL CLAIMS WERE NOT RESOLVED
BEFORE THE CASE WAS CLOSED; WHETHER THE COURT ADDRESSED THE
IMPROPER REMOVAL OF PETITIONER’S NAME FROM THE CAPTION OF
THE CASE, WITHOUT CONSENT AND NOTIFICATION, ALTHOUGH SHE
ALERTED THE COURT ABOUT SUCH A IRREGULARITY; WHETHER THE
COURT OVERLOOKED THE FACT THAT NEITHER PETITIONER NOR HER
SON JULIAN MOODY SOUGHT REMOVAL OF HER NAME FROM THE
AMENDED COMPLAINT; WHETHER THESE ISSUES WERE REVIEWED AND
ADDRESSED BY THE COURT PRIOR TO RENDERING ITS DECISION ON
PETITIONER’S MOTION TO VACATE THE JUDGMENT; AND WHETHER
THESE ISSUES WERE PROPERLY ADDRESSED BY THE CIRCUIT COURT ON
APPEAL?
8. WHETHER THE COURT OF APPEALS’ JUDGMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID AS IT OVERLOOKED THE
FACT THAT THE DISTRICT COURT DEPARTED FROM THE ESSENTIAL

IV

REQUIREMENTS OF THE LAW WHEN THE CASE WAS SETTLED WITH
PETITIONER’S SON JULIAN MOODY (BEHIND HER BACK) BASED ON
RESPONDENT’S TRICKERY MISINFORMATION AND DISREGARD OF THE
PRE-REQUISITE CONDITIONS FOR THE MEDIATION ALTHOUGH THE
COURT WAS AWARE OF SUCH PRIOR TO THE DISMISSAL OF THE CASE;
WHETHER THE DISTRICT COURT ERRED BY FAILING TO VACATE THE
SETTLEMENT

AFTER

PROPER

AND

TIMELY

NOTIFICATION

BY

PETITIONER OF THE IRREGULARITIES OF THE MEDIATION; AND
WHETHER THESE ISSUES WERE PROPERLY ADDRESSED BY THE CIRCUIT
COURT ON APPEAL?
9. WHETHER THE DISTRICT COURT’S JUDGMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID AS IT OVERLOOKED THE
FACT THAT RESPONDENT DID HAVE REPRESENTATIVE CAPACITY TO
PROSECUTE CLAIMS ON BEHALF OF HER SON JULIAN MOODY; WHETHER
RESPONDENT AND COUNSEL FOR BOTH PARTIES ADHERED TO FRCP AND
LOCAL RULES WHEN EXCLUDING PETITIONER FROM THE MEDIATION
AND SETTLEMENT OF THIS CASE; AND WHETHER THESE ISSUES WERE
PROPERLY ADDRESSED BY THE LOWER COURTS ON PETITIONER
MOTIONS TO VACATE THE JUDGMENT AND FOR LEAVE TO AMEND?
10.

WHETHER

THE

DISTRICT

COURT AND

COURT

OF APPEALS’

JUDGMENTS ARE PROCEDURALLY DEFICIENT AND CONSTITUTIONALLY
INVALID SINCE BOTH COURTS OVERLOOKED THE FACT THAT IN

v

ADDITION TO THE NATIONAL FOOTBALL LEAGUE (“NFL”), THE NEW YORK
CITY DEPARMENT OF EDUCATION (“DOE”) AND THE PUBLIC SCHOOLS
ATLHETIC LEAGUE (“PSAL”) VIOLATED PETITIONERS DUE PROCESS
RIGHTS UNDER THE XIV AMENDMENT TO THE CONSTITUTION BY NOT
GIVING HER NOTICE OF THE ACTION TAKEN BY THE FOOTBALL COACH
AGAINST HER SON JULIAN MOODY; WHETHER THE “DOE” AND “PSAL”
SHOULD BE HELD LIABLE FOR ALLOWING THE VIOLATION OF JULIAN
MOODYS CONSTITUIONAL RIGHTS PURSUANT TO SECTION 504 OF THE
REHABILITATION ACT (“SECTION 504”) AND THE AMERICAN WITH
DISABILITIES ACT (“ADA”) CONSIDERING THAT HE WAS A STUDENT
ENTRUSTED TO THESE PUBLIC AGENCIES AND WERE COMPLICIT IN
EXCLUDING JULIAN MOODY FROM PARTICIPATING IN THE NATIONAL
TOURNAMENT; WHETHER THE COURTS ERRED BY NOT ALLOWING
PETITIONER TO AMEND THE CAPTION OF THE CASE TO SUPPLEMENT
THE PLEADINGS AND ADD THE “DOE” AND “PSAL” AS DEFENDANTS TO
THIS ACTION FOR THESE VIOLATIONS; WHETHER PERTITIONER AND HER
SON JULIAN MOODY ARE ENTITLED TO RELIEF FROM THESE AGENCIES;
AND WHETHER THESE ISSUES WERE PROPERLY ADDRESSED BY THE
LOWER COURTS ON PETITIONER’S MOTIONS TO VACATE THE JUDGMENT
AND FOR LEAVE TO AMEND?
11. WHETHER THE DISTRICT COURT’S JUDGMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID AS IT OVERLOOKED THE

vi

FACT THAT RESPONDENT DISCRIMINATED AGAINST PETITIONER UNDER
THE EQUAL PROTECTION CLAUSE OF THE XIV AMENDMENT; WHETHER
PETITIONER SHOULD HAVE BEEN ALLOWED TO AMEND THE CAPTION OF
THE CASE TO SUPPLEMENT HER PLEADINGS AND ADD PARTIES TO THIS
ACTION; WHETHER PETITIONER IS ENTITLED TO RELIEF FOR SUCH
VIOLATIONS;

AND

WHETHER

THESE

ISSUES

WERE

PROPERLY

ADDRESSED BY THE LOWER COURTS ON PETITIONER MOTIONS TO
VACATE THE JUDGMENT AND FOR LEAVE TO AMEND?
12. WHETHER THE DISTRICT COURT AND THE COURT OF APPEALS’
JUDGMENTS ARE PROCEDURALLY DEFICIENT AND CONSTITUTIONALLY
INVALID AS BOTH COURTS OVERLOOKED THE FACT THAT THE UNITED
STATES DEPARTMENT OF EDUCATION-OFFICE FOR CIVIL RIGHTS (“OCR”)
AND THE UNITED STATES DEPARTMENT OF JUSTICE (“DOJ”) VIOLATED
PETITIONER’S DUE PROCESS AND EQUAL PROTECTON RIGHTS BY NOT
INVOLVING HER IN THE INVESTIGATIONS OF THE DISCRIMINATION
COMPLAINTS SHE FILED AGAINST THE “DOE” AND “NFL”; WHETHER
THESE AGENCIES VIOLATED THE BASIC NORMS AND PRINCIPLES THAT
GOVERN THE INVESTIGATION OF COMPLAINTS; WHETHER PETITIONER
SHOULD HAVE BEEN ALLOWED TO AMEND THE CAPTION OF THE CASE
TO SUPPLEMENT THE PLEADINGS AND ADD THE “DOJ AND “OCR” AS
DEFENDANTS TO THIS ACTION FOR THESE VIOLATIONS; WHETHER
PETITIONER IS ENTITLED TO RELIEF FOR THESE AGENCIES’ FAILURE TO

Vll

COMPLY WITH PERTINENT REGULATIONS ON THE INVESTIGATION OF
DISCRIMINATION COMPLAINTS; AND WHETHER THESE ISSUES WERE
PROPERLY REVIEWED AND ADDRESSED BY THE LOWER COURTS ON
PETITIONER’S MOTIONS TO VACATE THE JUDGMENT AND FOR LEAVE TO
AMEND?
13. WHETHER THE DISTRICT COURT’S JUDGMENT IS PROCEDURALLY
DEFICIENT AND CONSTITUTIONALLY INVALID SINCE IT OVERLOOKED
PETITIONER’S ASSERTIONS THAT RESPONDENT AND COUNSEL FOR BOTH
PARTIES ENGAGED IN BAD FAITH AND UNETHICAL BEHAVIORS THAT
LED TO AN UNFAIR SETTLEMENT AND DISMISSAL OF THIS CASE VIA
STIPULATION; WHETHER RESPONDENT AND

COUNSEL FOR BOTH

PARTIES SHOULD HAVE BEEN SANTCIONED BY THE COURT UPON
NOTIFICATION OF SUCH IMPROPER PRACTICES; AND WHETHER THESE
ISSUES WERE PROPERLY ADDRESSED BY THE LOWER COURTS ON
PETITIONER’S MOTIONS TO VACATE THE JUDGMENT AND FOR LEAVE TO
AMEND?
14. WHETHER THE COURT OF APPEALS’ JUDGMENT IS PROCEDURALLY
DEFICIENT

AND

PETITIONER’S

CONSTITUTIONALLY

REQUEST

FOR

RECUSAL

INVALID
OF

AS

JUDGES

IT

IGNORED

FROM

THIS

PROCEEDING DUE TO LACK OF IMPARTIALITY; WHETHER PETITIONER IS
ENTITLED TO A RESPONSE TO HER REQUEST FOR RECUSAL; AND
WHETHER THIS ISSUE WAS PROPERLY ADDRESSED BY THE COURT?

vm

LIST OF PARTIES TO THE PROCEEDINGS
The following individuals and entity are parties to the proceedings below:
The Petitioner is Aura Moody (hereinafter referred as “Petitioner”,
“Plaintiff’, “Appellant”, “Mother”, “Parent”), “Ms. Moody”, “Aura”). Petitioner is a
Black Hispanic woman. She is the mother of Julian Moody, who originally
commenced legal action on his behalf and herself. Julian was a minor when
Respondent took the adverse action. During the pendency of this litigation, he
became an adult. Following the retention of Counsel, Mr. Moody provided Ms.
Moody with a durable Power of Attorney to act on his behalf, and never revoked or
terminated it. Pt.App.32-33. Therefore, Petitioner did have representative capacity
to prosecute claims on Julian’s behalf. Petitioner practically made all the decisions
since the inception of this case, but she was maliciously excluded by Counsel when
it came to the mediation and settlement, despite Julian instructing them that
settlement issues had to be discussed with his mother prior to him making a
decision, as per an email sent to Petitioner by Counsel on July 24, 2015. Petitioner
is acting Pro Se.
Julian Moody (“Plaintiff’, “Main Plaintiff’, “Son”, “Mr. Moody”, “Julian”) is
an American Citizen of Colombian and African-American descent. He suffers from a
disability as defined by the American with Disabilities Act (“ADA”) and Section
504 of the Rehabilitation Act (“Section 504”), to wit, diabetes. At the time the
incident that led to this action took place, Julian was a student at Bayside High
School, a public school run by the New York City Department of Education (“DOE”)

IX

where he was the starting Quarterback on the school’s football team. He was an
active member of the National Football League/High School Player Development
Program (“HSPD”). The Public Schools Athletic League (“PSAL”) is an organization
that promotes student athletics in the public schools of New York City. It was
founded to provide and maintain a sports program for students enrolled in New
York City public schools, in this case, Bayside High School. Football has been one of
Julian’s passions since he was a young child. While managing his diabetes, he
continued playing football. He was very good in both the football field and
classroom. Julian became the recipient of numerous academic and athletic awards
Citywide. Pt.App.12-31; Appendix to Appellant’s Brief at 101-128.
The Respondent is the National Football League (“NFL”, “Respondent”,
“Defendant”, “Appellee”). The NFL is an American football league consisting of 32
teams. Upon information and belief, it is the highest professional level sport league
of American football in the world. The HSPD is an independent program sponsored
and operated by the NFL, and this program uses DOE and other public facilities.
Respondent hired and compensated the Football Coaches for their work in the
HSPD program. The Coaches were also employed by the DOE. Pt.App.12-14.
Respondent is believed to be represented by Brewer Attorneys & Counselors.

x

RELATED CASES
The following cases are directly related to the case in this Court:
Moody v. NFL, No. 15-cv-01072, United States District Court for the Eastern
District of New York, Judgment entered on March 11, 2020.
Moody v. NFL, No. 20-1551cv, United States Court of Appeals for the Second
Circuit, Judgment entered on January 21, 2021.
Moody v. NFL, No. 16-4315cv, United States Court of Appeals for the Second
Circuit, Judgment entered on May 3, 2018.
Moody v. NFL, No. 18-393, Supreme Court of the United States, Judgment entered
on February 19, 2019.

xi

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

1

LIST OF PARTIES TO THE PROCEEDINGS

IX

RELATED CASES

xi

TABLE OF CONTENTS

Xll

TABLE OF AUTHORITIES

xiv

INTRODUCTION

1

OPINIONS AND ORDERS BELOW

6

JURISDICTION

7

STATUTORY AND REGULATORY PROVISIONS INVOLVED

7

STATEMENT OF THE CASE

8

STATEMENT OF THE FACTS

8

PRIOR PROCEEDINGS

10

REASONS FOR GRANTING WRIT

16

CONCLUSION

40

INDEX TO APPENDICES
Order Dismissing Appeal in the United States Court of Appeals for the
Second Circuit (October 5, 2020)..................................................................... App. 1
Court Docket in the United States District Court of the Eastern District of
New York Brooklyn Division with Electronic Orders Highlighted
Entry 21 (January 14, 2016), Entry 22 (August 12, 2016)
Entry 23 (August 29, 2016, August 31, 2016, and September 15, 2016)
Entry 24 (September 15, 2016, December 12, 2016, and December 20, 2016)
Entry 28 (December 30, 2016), Entry 31 (January 19, 2017)
Entry 30 (January 13, 2017)
Entry 34 (January 27, 2017), Entry 36 (February 14, 2017)
Entry 37 (February 23, 2017), Entry 38 (May 3, 2018)
Entry 39 (March 20, 2019), Entry 40 (March 11, 2020)
Entry 41 (May 6, 2020), Entry 42 (May 6, 2020 and May 13, 2020)
App. 2
Entry 44 (May 28, 2020), Entry 45 (January 29, 2021)
Xll

Order Denying Rehearing in the United States Court of Appeals for the
Second Circuit (January 21, 2021)
App. 11
Amended Complaint in the United States District Court for the Eastern
District of New York (July 7, 2015)
App. 12
Letter Dated 9/20/16 to Judge Frederic Block from Aura Moody
(September 23, 2016)......................................................................

App. 22

Power of Attorney (November 27, 2015)

App. 32

Letter to Hon. Frederic Block by National Football League
(January 13, 2017)..................................................................

App. 34

Text Message (January 24, 2017)

App. 36

Emails

App. 37

Stipulation of Dismissal and Letter (October 29, 2014)

App. 42

Contract for Representation (December 26, 2013)

App. 44

Constitutional and Statutory Provisions Involved

App. 45

xm

TABLE OF AUTHORITIES
Cases
Am. Med. Ass'n v. United Healthcare Corp.
No. 00CIV2800LMM, 2006 WL 3833440.
Amaya v. Roadhouse Brick Oven Pizza, Inc.,
285 FRD 251 (E.D.N.Y. 2012)......................

30

25, 37

Anderson News LLC v. am Media Inc.,
680 F3d. 162 (2d Cir. 2012), cert denied 133 S. Ct. 846 (2013)

20

Ashcroft v. Iqbal,
556 U.S. 652 (2009)

19

Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007)................

20

Block v. First Blood Assocs.,
988 F.2d 344 (2d Cir. 1993)

29

Board of Directors of Rotary International v. Rotary Club of Duarte,
481 US 537 (1987).....................................................................................

24

Brown v. Kelly,
244 F.R.D. 222 (S.D.N.Y. 2007), 609 F.3d 467 (2d Cir. 2010)

28

Carey v. Population Services International,
431 US 678 (1977).......................................
Cent. States Se. Areas Health & Welfare Fund v. Merck-Medco Managed
Care, LLC, 433 F.3d 181..................................................................................

23, 24

31

Chambers v. Mississippi,
410 US 284 (1973).......

6

Chan v. City of New York,
1 F3d 96 (2d Cir. 1993).

35

City of Akron v. Akron Center for Reproductive Health Inc.,
462 US 416 (1983).....................................................................

24

Clark and Stone, Review of Findings of Fact,
4 U. of Chi.L.Rev. (1937)...............................

21

xiv

Conley u. Gibson,
355 U.S. 41 (1957)

23

Crispim v. Athanson,
275 F. Supp. 2d 240 (D. Conn 2003)

31

Denton v. Hernandez,
504 U.S. 25 (1992).

22, 23

Dodge v. Woolsey,
59 U.S. 331 (1855)

6

Fitzgerald v. Barnstable School Committee,
555 US 246, 129 S. Ct. 788, 172 L. Ed. 2d 582 (2009)
Foman u Davis,
371 U.S. 178 (1962)

32

25, 29, 36

Franklin v. Gwinnett County Public Schools,
503 US 60, 112 S. Ct. 1028, 117 L. Ed. 2d 208 (1992)

23

Friedl v. City of New York,
210 F.3d 79 (2d Cir. 2000)

29

Fuentes v. Shevin,
407 U.S. 67 (1972)

35

H.L. v. Matheson,
450 US 398 (1991)

23

Hagar v. Reclamation Dist.,
Ill U.S. 701 (1884)..........

34

Hernandez v. BMNY Contracting Corp., No. 17 CIV. 9375 (GBD),
2019 WL 418498 (S.D.N.Y. January 17, 2019)...............................

25, 37

Hernandez v. Sikka,
No. 17 CV 4792SJFSIL, 2019 WL 1232092 (E.D.N.Y. March 15, 2019)

25, 37

Hispanic Soc’y of the N.Y. City Police Dep’t v. N.Y. City Police Dep’t,
806 F.2d 1147 (2d Cir. 1986)...................................................................

31

Hodgson v. Minnesota
497 U.S. 417 (1990)

23

xv

Khulumani v. National Bank LTD,
504 f.3d 277 (2d Cir. 2007)..........

23

Kiobel v. Royal Dutch Petroleum
621 F. 3d 111 (2d Cir. 2010)....

23

Kiobell II and Daimler v. Bauman,
143 S. Ct. 746 (2014)....................

23

Klapprett v. United States,
335 U.S. 601 (1949).......

25

Kotlicky v. U.S. Fidelity and Guar. Co.,
817 F. 2d 6 (2d Cir., 1987)...................

26

Lehr v. Robertson,
463 US 248 (1983)

24

Maher v. Roe,
432 US 464 (1977)

24

Michael H. v. Gerald,
491 U.S. 110 (1989)

23

Minnesota v. Clover Leaf Creamery Co.,
449 US 456 (1981).................................

6

Neimaizer v. Baker,
793 F.2d 58 (2d. Cir. 1986)

25

Parham v. J.R.,
442 US 584 (1979)

23

Paris Adult Theater v. Slaton,
413 US 49 (1973)..................

24

Pierce v. Society of Sisters,
268 U.S. 510 (1925).......

33

Pierce v. United Mine Workers of America Welfare & Retirement Fund for 1950 &
1954, 770 F.2d 449 (6th Cir. 1985)................................................................................ 25
Ricciuti v. N.Y.C. Transit Auth.,
941 F.2d 119 (2d Cir. 1991)....

30

xvi

Santosky v. Kramer,
455 US 745, 102 S. Ct. 1388, 71 L. Ed. 2d 599 (1982)

33

S.E.C. v. DCI Telecommunications, Inc.,
207 F.R.D. 32 (S.D.N.Y. 2002).............

30

Sigmund v. Martinez,
No. 06 CIV. 1043 RWS MHD, 2006 WL 2016263 (S.D.N.Y. July 13, 2006)

29

Soroof Trading Dev. Co. v. GE Microgen, Inc.,
283 F.R.D. 142 (S.D.N.Y. 2012).....................

30

Thornburgh v. American College of Obstetricians and Gynecologists,
476 US 747 (1986)......................................................................................

24

Troxel v. Granville,
530 U.S. 57 (2000)

35

Truax v. Corrigan,
257 U.S. 312 (1921)

35

United Brands Co. Sec. Litig.,
No. 85 CIV. 5445 (JFK), 1990 WL 16164 (S.D.N.Y. Feb. 15, 1990)

29

Vernonia School District 47J v. Acton,
132 L.Ed.2d 564, 115 S.Ct. 2386 (1995)

23

Winkelman v. Parma City Sch. Dist.,
500 U.S. 516 (2007)..........................

31

Write v. United States,
No. 2:15-cv-0305-TOR

29

York Mortgage Corporation v. Clotar Const. Corp.
254 N.Y. 128, 172 N.E. 265 (1930)........................

21

Statutes
22NYCR§1210.1

37

28 U.S.C. §455

38

28 U.S.C. §1254(1)

7

28 U.S.C. §1257(a)

6,7
XVII

28 U.S.C. §1915(d)

21, 22

28 U.S.C. §2071

7, 18

42 U.S.C. §1983

31, 32, 35

Rules
12.3(a)

26

12.6(c)

26

FRCP 8

19

FRAP 12

26

FRAP 15

24, 28

FRAP 15(a)

28

FRAP 15(b)

28

FRAP 25

21, 28

FRAP 25(a)

21

FRAP 25(b)

21

FRAP 27

24

FRAP 2 7 (3) (A)

24

FRAP 31

27

FRAP 31(a)(1)

27

FRAP 31(c)

28

FRCP 52(a)

20

FRCP 60

24

FRCP 60(b)

26

FRCP 60(b)(2)

25
XVlll

Local Rule 6

24

Local Rule 27

24

Local Rule 31.2

27

Local Rule 31.2(a)

27

Local Rule 31.2(d)

27

Other Authorities
Am Jur 2d, Parent and Child § 10 (1987)

xix

23

INTRODUCTION
The United States of America is the pioneer in the promulgation and
preservation of civil and human rights in the world. As such, it is expected that the
judicial branch enforce the laws that protect its citizens, including those with
special needs.
In this certiorari proceeding, the Supreme Court of the United States is
required to determine whether the decisions of the United States Court of Appeals
for the Second Circuit (“Court of Appeals”, “Circuit Court”, “Second Circuit”) and
the United States District Court for the Eastern District of New York (“District
Court”, “EDNY”) were supported by competent substantial evidence, whether there
was a departure from the essential requirements of the law, and whether due
process was accorded.
This matter involves a lawsuit against the NFL as a result of
Respondent’s violations of a number of federal, state and city lawsregulations by depriving Julian (a then 16 year old insulin-dependent
diabetic) of his right to represent the New York Jets in a National Tournament
held from July 12 through July 15, 2012 in Indianapolis, Indiana (“National
Tournament”) on the basis of his disability, denying him a once in a lifetime
opportunity to be exposed to a national experience that could have led to possible
recruitment and scholarship offers by colleges in this country. On June 25, 2012,
Julian was abused and humiliated by his NFL/HSPD Coach in front of his
teammates and another Coach, removed from his all-star winning team
1

and replaced by a less qualified player from the losing team without
justification. Although Julian was a minor, his parents were not notified in
any manner of the adverse decision. When Petitioner learned about the HSPD
Coach’s abuse and maltreatment that endangered Julian’s welfare, his parents
reached out to NFL officials, ranging from the HSPD Coach to the Commissioner,
but they were indifferent. Appendix to Appellant’s Brief dated August 27, 2020 at
28-62. They had a legal and moral duty to take action but failed to do so. Petitioner
believes that the HSPD Coach’s cruel action and Respondent’s disdain amount to
negligence, child abuse and breach of fiduciary responsibility pursuant to the ADA,
Section 504, NYS Executive Law, NYS Human Rights Laws, NYS Education Laws,
NYS Child Abuse and Neglect Regulations, NYC Human Rights Laws, NYC
Education Laws, as well as the regulations of the NFL, PSAL and American
Diabetes Association, among others. Pt.App.45. They should be held countable for
civil and criminal violations.
The NFL is a private organization that uses facilities financed by the
government such as school buildings, parks and sport fields. The DOE and PSAL
are public institutions funded by taxpayers. The ADA and Section 504 prohibit ‘any
program or activities receiving federal funding from discriminating against disabled
individuals.’ Under these statutes, Respondent was required to make reasonable
accommodations for Julian’s disability to enable him to perform his essential
functions, but it failed to do so. Insomuch, Congress has emphasized that it is
extremely important that agencies rigorously observe applicable procedural

2

requirements when making decisions that affect the citizens of the United States,
including but not limited to provide the requisite notice to the parties involved.
Under both the First and Fourteenth Amendments, the NFL, DOE and PSAL were
required to provide Petitioner with certain procedural safeguards and notices before
Julian was deprived of his rights to participate in the National Tournament.
However, Petitioner was not given notice prior or immediately after Respondent’s
adverse action against Julian.
On February 2, 2015, Petitioner brought a lawsuit against the NFL. The
Complaint alleged that Respondent prohibited Julian from competing with his allstar team at the National Tournament because of his disability, in violation of
Section 504, the ADA and other relevant statutes. On July 7, 2015, the complaint
was amended to substitute Julian as the sole Plaintiff. Instead of adding
Julian’s name and other parties to the Original Complaint, Petitioner’s
name was removed from the caption of the case as a party of interest,
although she has her own meritorious claims against Respondent, as
asserted in Paragraph “22” of the Amended Complaint.1 which reads: “The
announcement was extremely devastating to Plaintiff as he had earned his place to
participate in this tournament and he was a member of the winning team. Plaintiff
was publicly humiliated in front of his peers and no one informed his parents of the
decision to exclude Julian from the program, even though when the events occurred
Julian Moody was a minor.” Pl.App.16. At the Status Conference held on September
1 The Complaint involves claims for injunctive relief, retaliation, intimidation, obstruction of justice,
breach of contract, concealment/tampering of evidence, failure to investigate allegations of child
abuse and neglect, cover up, intentional and negligent infliction of emotional distress, among others.

3

15, 2016, Respondent advised Judge Block that her name had been
removed from the Amended Complaint and that she should have been part
of the case because she has her own claims such as loss of consortium, but
he did not address these issues. Docket Entry No. 23, page 7. The Supreme
Court has concluded that parents of a child with a disability are “parties aggrieved”
and are entitled to relief for procedural infractions.
On January 6, 2016, Julian reached an agreement with the NFL and
settled this case for $1.000.00 and a ticket to watch a football game.
Pt.App.37-39. Petitioner opposed to the paltry settlement of this case based on the
irregularities she observed during the mediation by addressing a letter to the Judge
Block on January 12, 2016, but he did not respond. Docket Entry No. 21. On August
12, 2016, Counsel for both parties signed and filed a Stipulation, behind
Petitioner’s back, and the District Court dismissed the case. At the Status
Conference, our Counsel acknowledged that the settlement was “basically a
nuisance value”, that “there was an strong disagreement between Mrs.
Moody”, that “Respondent’s Counsel forwarded a settlement agreement
which

memoralized

what

had

taken

place

at

the

mediation,”

approximately 3 or 4 weeks after the mediation was concluded, that he
“forwarded the email to Julian,” and that “it took a few weeks for Julian to
sign the agreement and send it back to him.” Docket Entry No. 23, pages 3-6.
In his opening statement, Judge Block said: “I invited you all into court today.
This is a very unusual situation when we get a letter here by Mrs. Moody

4

on behalf of her son and I have never had this in 22 years, but you know
obviously Mrs. Moody spent a great amount of time and is very upset about
the way this matter has unfolded and how it was settled... I thought I’d
invite you into the court here since you seem to be so distressed...’’ Docket
Entry No. 23, pages 2-3. The fact that Julian waited several months from the date
of the mediation to the signing of the settlement agreement suggests that he was
reluctant to accept the initial offer but was pressured into signing a settlement.
Petitioner has not allowed this action to become dormant. She been actively moving
it through the procedural ladder from the time that Order was issued by the
District Court on August 12, 2016 and thereafter to advance this case on the merits.
The dismissal of Petitioner’s appeal by the Circuit Court, despite compelling
arguments and supportive evidence, was an error. A review of the facts and
evidence in the record shows that Aura and Julian have viable claims that should
have been legally submitted to a jury for adjudication on the merits. Unfortunately,
the lower Courts did not afford Petitioner a hearing on the disputed issues of facts
at hand. The Courts failed to recognize the injury that both Julian and his family
have suffered as a direct result of Respondent’s wrongful actions. The District
Court’s decision rendered on May 11, 2020 and the Circuit Court’s Orders issued on
October 5, 2020 and January 21, 2021 continue the deprivation by not reopening
this case and allowing Aura and Julian to re-plead their meritorious claims.
In a series of decisions, the Supreme Court has described the government’s
intolerance of human rights violations and has made decisions in favor of the

5

aggrieved parties. This Petition asks whether the Second Circuit conflicts with the
decisions of the Supreme Court and other Circuit Courts. The Supreme Court has
jurisdiction to review issues of denial of due process by the State Court e.g.
Chambers v. Mississippi, (1973) 410 US 284, and issues of equal protection clause
violation, e.g. Minnesota v. Clover Leaf Creamery Co., (1981) 449 US 456.
Jurisdiction is also invoked pursuant to 28 U.S.C. §1257(a) where the validity of
statutes, orders and appellate procedures of State is drawn in question on the
ground of its being repugnant to the First and Fourteenth Amendments on civil
rights. Dodge v. Woolsey, (1855) 59 U.S. 331. It is Petitioner’s good faith belief that
the lower Courts’ decisions were not conducted in accord with the relevant federal,
state and city statutes/laws, as decided by the Supreme Court in Chambers v.
Mississippi.
Petitioner submits this Petition for a Writ of Certiorari (“Petition”) to
challenge the constitutionality of the procedures used by the lower Courts.
Petitioner asks for unsettled issues in important federal questions with public
importance related to violations of Petitioner’s procedural and substantive due
process and equal protection rights guaranteed under the XIV Amendment and
other statutes, as well as to Respondent’s violations of Julian’s constitutional rights.
OPINIONS AND ORDERS BELOW
The District Court’s Order-Transcript of Civil Cause for Status Conference
held on September 15, 2016 is included as Appendix 1 (12-23) to the Appendix
of Appellant’s Brief dated August 27, 2020. It is reported in its record under
Docket Entry No. 23.
6

The District Court’s Electronic Order issued on March 11, 2020 is reported in
its record under Docket Entry No. 40.
The Circuit Court’s Order dated October 5, 2020 is attached as Appendix 1
to this Petition.
The Circuit Court’s Order dated January 21, 2021 (issued as a Mandate on
January 29, 2021) is attached as Appendix 11 to this Petition.
JURISDICTION
The date on which the United States Court of Appeals decided this case was
October 5, 2020.
A timely Petition for Rehearing and Rehearing En Banc was denied by the
Second Circuit on January 21, 2021.
An extension of time to file this Petition was not needed. This Court extended
the time for filing from 90 days to 150 days from the date of the entry of the final
judgment or denial of a timely filed petition for rehearing in the United States
Court of Appeals amid the COVID-19 coronavirus global pandemic.
Upon information and belief, the jurisdiction of this Court is invoked under
28 U.S.C. §1254(1), 28 U.S.C. §1257(a) and 28 U.S.C. §2071.
STATUTORY AND REGULATORY PROVISIONS INVOLVED
Some of the relevant statutory and regulatory provisions are set out in the
Appendix at 45.

7

STATEMENT OF THE CASE
Petitioner assumes the Court’s familiarity with the underlying facts
evidence, procedural history of the case and issues on appeal, to which she refers
only as necessary.
STATEMENT OF THE FACTS
In the Spring 2012, Julian was selected to participate in the HSPD program
via the recommendation of his football coach from Bayside High School (Mr. Jason
Levitt), which initially consisted of nearly 200 students-athletes. Appendix to
Appellant’s Brief at 119. Julian advanced throughout all the phases of the citywide
competition. On June 23, 2012, the HSPD had a final football game, and Julian’s
team was victorious. On June 25, 2012, Julian and the other players on the winning
team reported to Roy Wilkins Park in Queens for practice and trip arrangements.
On that date, Mr. Willie Beverly (HSPD Coach, who was the Coach of August
Martin High School’s football team) abruptly removed Julian from the all-star
travel team from New York City, embarrassed and ridiculed him in the presence of
Mr. James Desantis (HSPD Coach, who was the Coach of Flushing High School’s
football team) and his teammates. Julian was replaced by a less qualified player
from the losing team, a member of Jamaica High School’s football team. Feeling
publicly humiliated, deeply shocked, saddened and devastated by this sudden turn
of events, in a zombie like state, Julian took the bus home. He later called the
trip back home as “the longest ride of my life.” Julian’s parents were not
notified by the NFL, DOE or PSAL of Respondent’s decision. Pt.App.22-31.
Afterwards, the NFL and DOE claimed that none of the Coaches was aware
8

of Julian’s disability. Docket Entry No. 24.Exh.7. This denial is egregious!
Julian’s parents submitted the proper medical documentation to the DOE and NFL
prior to him engaging in the physical sport. Julian’s medical record was in the
custody of Respondent. After the denial proving otherwise, Julian’s medical
documents were located in the files maintained by Respondent and
produced to the District Court by Mr. Jerry Horowitz (Senior Director in the
Football Operations Department) on March 7, 2015. Appendix to Appellant’s Brief
at 130-133. As to the National Tournament, Julian’s qualification was based strictly
on the established rules that allow the citywide winning team to compete
nationwide. Julian was physically ready, willing and able to play. Respondent
chickened out for no apparent reason by targeting Julian based on his disability. He
was used as an escape-goat. Respondent read his medical records, saw that he has
diabetes and decided to use his condition as a means to exclude him from competing
nationwide. The fact that the Respondent’s decision was not communicated to
Petitioner infringed upon her due process and equal protection rights.
When Petitioner learned that Respondent had mistreated Julian and violated
his trust as a minor, his parents sought administrative remedies by reaching
out to NFL officials via phone calls and emails, ranging from Coach A1
Tongue to Commissioner Roger Goodell, but their good faith efforts were
rejected. They asked for an investigation of the incident, a meeting with the
parties involved and the HSPD governing rules, but Respondent denied their
requests. Appendix to Appellant’s Brief at 28-62; Pt.App.22-31. Respondent’s

9

actions

were

deliberate,

capricious,

atrocious,

heartless,

intentionally

discriminatory, extreme in degree and outrageous in character as to exceed the
bounds of decent society, causing harm to Julian and his family. Respondent knew
that they had done something wrong but failed to take the necessary steps to
correct the situation. Respondent did not even offer an apology.

PRIOR PROCEEDINGS
Considering that Julians parents were unable to resolve their grievance
amicably with Respondent, Petitioner sought corrective actions by filing
discrimination

Complaints

with

the

United

States

Department

of

Education-Office for Civil Rights (“OCR”) and United States Department of
Justice (“DOJ”). Both agencies failed to comply with OCR-Article III of the Case
Processing Manual and DOJ-Regulations of the U.S. Attorney’s Office. They
violated Petitioner’s due process and equal protection rights by closing
the cases without involving her during the course of their alleged
investigations and serving her with Respondents’ responsive documents
for her perusal and rebuttal. Petitioner unsuccessfully appealed both decisions.
Upon information and belief, both agencies and their officials engaged in
inappropriate behaviors and colluded with the DOE and NFL when making their
decisions. This lawsuit could have been averted if they had abided by the law.
Petitioner seeks to add the DOE, OCR, DOJ and PSAL as Defendants.

10

COMPLAINT AGAINST THE DOE AND NFL FILED WITH THE OCR
On August 3, 2012, Petitioner filed a Complaint with OCR against the DOE
and NFL pursuant to Section 504 and the ADA. (Case # 02-12-1303). OCR
requested that the DOE respond to a questionnaire of 8 questions. In its unilateral
investigation, OCR determined that the HSPD is operated by the NFL and closed
the case without Petitioner being involved. Appendix to Petitioner’s Motion for
Leave to Amend dated May 29, 2020, Exhibit 2.
COMPLAINT AGAINST THE NFL FILED WITH THE DOJ
Following the OCR’s dismissal of the Complaint against the DOE, OCR
referred the case to the DOJ for an investigation against the NFL pursuant to the
ADA. The DOJ requested that the NFL respond to a questionnaire of 12 questions
and closed the Complaint solely based on the information obtained from
Respondent. Appendix to Petitioner’s Motion for Leave to Amend, Exhibit 3. To
date, Petitioner has not seen Respondent’s response to her Complaint. Out
of desperation, on August 22, 2016, Petitioner addressed a letter to then
Attorney General Loretta Lynch, but her concerns fell on deaf ears and no
action was taken in her favor. Appendix to Appellant’s Brief at 135-140.
THE COURT PROCEEDINGS
Since Petitioner’s good faith efforts to seek administrative remedies failed, on
December 26, 2013, she retained the services of the Law Firm of Stewart Lee Karlin
PC to represent the Moody family in this action. Attorneys assigned for the record
were Mr. Stewart Lee Karlin and Ms. Natalia Kapitanova. Pt.App.44.

11

COURSE OF THE PROCEEDINGS IN THE NYS SUPREME COURT AND
DISTRICT COURT AGAINST THE DOE
On March 28, 2014, Petitioner, through Counsel, commenced a lawsuit
against the DOE in the Supreme Court of the State of New York. (Index #:
702100/2014; USDC Docket #: l:14-cv-02763-RMM-RML). On May 2, 2014, the case
was removed to the District Court. During the pendency of this case, the DOE
claimed not to play any role in the HSPD program, as per an email sent to Mr.
Karlin on June 5, 2014 by Mr. Porter (Assistant Corporation Counsel, NYC Law
Department). Appendix to Appellant’s Brief at 68-70. Petitioner was informed by
Counsel about the imposition of sanctions by the Court if the case was not
withdrawn. The case against the DOE was discontinued via Stipulation on
October 29, 2014, despite Petitioner’s objections. This decision was made
under the compromise that the case would be pursued against the NFL.
Because Petitioner was prohibited to write down “in dissent” when she
signed the Stipulation, on October 30, 2014, she sent an email to Mr. Karlin
confirming her position. Pt.App.42-43. Petitioner gave her Attorneys
instructions to incorporate other claims and parties into the Complaint
against the NFL, but they proceeded against her wishes. Pt.App.40-41.

COURSE OF THE PROCEEDINGS IN THE DISTRICT COURT, COURT OF
APPEALS AND UNITED STATES SUPREME COURT AGAINST THE NFL
On February 2, 2015, Petitioner, through counsel, brought a lawsuit against
the NFL. (Case # 15-cv-01072). On July 7, 2015, an injustice was perpetrated
against Petitioner when the Complaint was amended and Petitioner’s name
was removed from the caption of the case without consent and notification
12

by the Court or Counsel. Pt.App. 12-21. Ms. Moody was not served with a
substitution of parties and/or transfer of interest motion, together a notice of
hearing. She was not served with the Amended Complaint (final document).
Pt.App.40. She did not seek voluntary dismissal and never signed a Stipulation of
dismissal. On September 22, 2015, the Court issued an Order referring the
case for mediation.

Docket Entry No.

18.

Subsequently, both parties

established pre-conditions that were required prior to the commencement
of any negotiation, being one of them the production of Respondent’s response to
Petitioner’s DOJ Complaint. In addition to a monetary award and reimbursement of
Attorney fees, Julian was offered an internship with the NFL. Pt.App.22-31,39-41.
Via email dated January 2, 2016, Petitioner requested from Counsel a copy of the
Amended Complaint. Pt.App.40. On January 6, 2016, a mediation conference
was held despite Respondent’s failure to satisfy the preconditions. Julian
was subjected to a high level of undue influence from the other party. Respondent in
conjunction with Counsel and the Mediator used mental games and behavioral
ploys to force out of Julian a decision that was contrary to his interests by accepting
the first offer that was put on the table before him. They took advantage of Julian’s fear of
having his school and job prospect affected by this case as a tool to force him to choose between
his education and this lawsuit. They even went as far as to preach that the NFL is used to bad
publicity and that it has good Attorneys to defend this case, among other remarks. The NFL
offered Julian $1,000.00 and a ticket to watch a football game to settle this
case. He was told that Respondent could not give him the promised
internship because they are based on merit. Respondent also refused to
13

reimburse Petitioner for the paid legal fees (more than $7,000.00).
Respondent did not turn over the DOJ’s responsive documents. Pt.App.3739. Petitioner opposed to the settlement by addressing a letter to Judge Block on
January 12, 2016, but he did not respond. Docket Entry No. 21. On August 12,
2016, Counsel filed a Stipulation of Dismissal. Appendix to Appellant’s Brief at 76.
On August 12, 2016, the District Court dismissed the case via Stipulation. Docket
Entry No. 22. On August 15, 2016, Petitioner wrote a second letter to the Court
opposing to the settlement. Docket Entry No. 23. At the Status Conference,
Respondent’s Counsel requested that Petitioner’s August 15th letter be
under seal if it was going to remain in the Court because the terms of the
settlement were agreed to be confidential. Docket Entry No. 23, page 11. On
September 15, 2016, the Court conducted a Status Conference. Docket Entry No. 23;
Appendix to Appellant’s Brief at 12-23. On September 20, 2016, Petitioner wrote a
third letter to the Court asking that the case be reopened. Docket Entry No. 24;
Pt.App.22-31. On December 12, 2016, the Court issued an Electronic Order stating
that it will take no further action in this case. Docket Entry No. 24. On December
24, 2016, Petitioner filed a Motion for Reconsideration along with a Notice of
Appeal. (Case # 16-4315). Docket Entry No. 27. Petitioner’s Motion was denied on
January 19, 2017 via an Electronic Order. Docket Entry No. 30. On January 13,
2017, Respondent addressed a letter to the Court asking that Petitioner’s Motion for
Reconsideration be rejected and requested that if the Motion was to proceed, a
conference be convened to discuss a briefing schedule and the right of Respondent to

14

recover expenses incurred in connection with this appeal. Docket Entry No. 30;
Pt.App.34-35. Respondent’s January 13th letter was not addressed by the Court. On
January 19, 2017, Petitioner wrote a fourth letter to the Court in response to
Respondent’s January 13th letter and requested its Response to her DOJ Complaint.
Docket Entry No. 31. On January 19, 2017, the Court denied Petitioner’s Motion for
Reconsideration via Electronic Order. Docket Entry No. 30. Petitioner appealed the
Court’s December 12th and January 19th decisions. On January 25, 2017, Petitioner
addressed a letter to the Circuit Court informing that she believed Respondent and
Counsel were retaliating against her and attempting to obstruct justice. Docket
Entry No. 34. On February 9, 2017, Petitioner addressed a fifth letter to the Court
inquiring about the status of her January 19th letter, but no determination was
made. Docket Entry No. 36. The Court of Appeals denied review of the December
12th and January 19th Court’s decisions and dismissed the appeal for lack of
jurisdiction via Summary Order dated February 15, 2018 and affirmed the
judgment of the District Court. On March 29, 2018, Petitioner filed a Petition for
Panel Rehearing and Rehearing En Banc (“Panel Rehearing”), but it was denied.
The Circuit Court affirmed the judgment of the District Court by issuing a Mandate
on May 3, 2018. On September 24, 2018, Petitioner filed a Petition for a Writ of
Certiorari in the Supreme Court of the United States. (Case # 18-393). On
December 3, 2018, the Petition was denied. On December 28, 2018, Petitioner filed
a Petition for Rehearing, but it was denied on February 19, 2019. On March 11,
2019, Petitioner addressed a letter to the Justices of the Supreme Court expressing

15

her disagreement with the February 19th decision, but the Court did not respond.
Docket Entry No. 39. Following Supreme Court proceedings, on February 24, 2020,
Petitioner filed a Motion to Vacate the Judgment with the District Court. Docket
Entry No. 40. It was denied on March 11, 2020 via Electronic Order. Pt.App.9.
Respondent did not respond and the Court failed to demand an answer. Petitioner
appealed the March 11th decision. (Case # 20-1551). Docket Entry 44. A combined
Notice of Appeal and Motion for Extension of Time was filed with the District Court
on May 6, 2020, and it was granted on May 13, 2020. Docket Entry No. 41. On May
29, 2020, Petitioner filed a Motion for Leave to Amend. On July 31, 2020, Petitioner
filed an Amendment to her May 29th Motion. On August 27, 2020, Appellant filed
her Brief and Appendix. Respondent did not file and serve Acknowledgement and
Notice of Appearance Form, Briefing Schedule and Response Brief with Appendix,
in contravention of FRAP and Local Rules. On October 5, 2020, the Court denied
Petitioner’s Motion for Leave to Amend and dismissed the appeal. Pt.App.l. On
October 19, 2020, Petitioner filed a Petition for Panel Rehearing, but it was denied
on January 21, 2021. Pt.App.ll.
REASONS FOR GRANTING THE WRIT
Upon information and belief, the doctrine of judicial precedent is based on a
principle called stare decisis. The term stare decisis means the standing by of
previous decisions. This principle translates into the following: When a particular
point of law is decided in a case, all future cases composing of the same facts and
circumstances will be bound by that decision. The questions presented herein are
essential and deserve the attention of the Supreme Court of the United States.
16

There is legal sufficiency to show that Petitioner has standing to
appeal the March 11, 2020, October 5, 2020 and January 21, 2021 Court
Orders and is entitled to relief. Petitioner believes that the District Court and
Circuit Court abused their discretion by denying her Motions and dismissing the
appeal.
Firstly, Petitioner seeks certiorai review of the District Court’s judgment that
disposes of claims with respect to Julian via settlement but failed to address the
individual claims of Aura. The Court failed to secure Petitioner’s consent to remove
her name from caption of the case; failed to properly notify Aura and Julian of such
decision, disregarded the Power of Attorney; failed to convene a hearing following
Petitioner’s notification to the Court of the irregularities of the mediation and
removal of her name; and denied Petitioner’s Motion to Vacate the Judgment
without Respondent’s response and holding a hearing. The Court did not demand
and impose sanctions to Respondent for non-adherence to FRCP and Local Rules.
Secondly, Petitioner seeks certiorari review of the Circuit Court’s Orders
denying her Motion for Leave to Amend and dismissing the appeal because it “lacks
an arguable basis either in law or in fact.” The Court failed to review and address
the facts, arguments and evidence in the record; failed to conduct oral
argument/panel rehearing; failed to demand Respondent’s compliance with FRAP
and Local Rules. The Court failed to order that Respondent file and serve
Acknowledgement and Notice of Appearance Form, Briefing Schedule and Response
Brief with Appendix. Likewise, a review of this matter by this Court is warranted

17

because Aura and Julian have meritable and viable causes of action that have not
been resolved. Unfortunately, through no fault of her own, Petitioner’s opportunity
to plead those causes of action was short-circuited by Respondent and Counsel on
record. Aura’s name was removed from the Amended Complaint without approval
whereas Julian was forced to settle this case. Justice has not been served!
Petitioner believes that the lower Courts overlooked controlling principles of
law, misapprehended the facts and disregarded the evidence in the record when
rendering their decisions. The Court of Appeals’ decision contradicts and/or
ignores numerous standing decisions of the Supreme Court, the Second
Circuit and other Circuit Courts. Certiorari review is necessary to reconcile
conflicts within the Circuit’s jurisprudence and Supreme Court’s precedent and to
ensure the provision of federal forum for the redress of law of nations’ violations.
This Court is requested to exercise its rule-making power rendered by Congress
Pursuant to 28 U.S.C. § 2071 to resolve any conflict of law in the State on appeal
right involving Petitioner’s improper removal of her name from the Amended
Complaint and the unlawful settlement of Julian’s case. WHEREFORE, reversal
of the lower Courts’ Orders and a declaration of mistrial of Julian’s case
are warranted. Petitioner should be allowed to assume her rightful place as a
Plaintiff in this lawsuit, supplement the pleadings, add other parties, compel the
disclosure-production of documents and introduce new evidence. Julian’s case
should be reopened for a fair and impartial trial before an unprejudiced jury, on
proper evidence and under correct instructions as the law lay deem just and proper.

18

In support of her Petition, Petitioner offers the following facts and arguments
to the best of her ability. Considering that Ms. Moody is not an attorney, the cited
cases should be looked at with caution. Petitioner respectfully requests that this
Court apply the pertinent caselaw/rulings of standing Courts’ decisions that are
relevant to this case.
QUESTION 1.
Petitioner has standing to appeal the March 11th, October 5th and January
21st Court Orders and is entitled to relief. The appeal is not frivolous or malicious. It
was denied without oral argument/panel rehearing, explanation/analysis and
Respondent’s responsive documents, as required by statutory mandates.
There is no question that the facts, arguments and evidence presented herein
support a finding that Respondent unlawfully discriminated against and violated
the constitutional rights of Julian and his parent. They have legal interests that
may plausibly be said to be affected by the Courts’ judgments. Petitioner has her
own viable causes of action, but they were underscored by the District Court prior to
rendering its decision on May 11, 2020, and the Circuit Court on October 5, 2020
and January 21, 2021. In addition, Julian’s settlement of this case was unfair.
FRCP 8 requires that a complaint include facts giving rise to a plausible
entitlement to relief. Id. According to Ashcroft v. Iqbal, 556 U.S. 652, 678 (2009), a
claim has facial ‘plausibility’ when the plaintiff pleads ‘factual contents that allows
the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged.’ Id.

The Supreme Court specifically indicated that in

determining whether a complaint states a plausible claim for relief under this
19

standard is ‘a context specific tasks that requires the reviewing court to draw on its
judicial experience and common sense.’Id at 679. In determining whether a
complaint states a claim that is plausible, the Court is required to proceed ‘on the
assumption that all the factual allegations in the complaint are true,’ even if their
truth seems doubtful. Id at 185, quoting Bell Atlantic Corp. v. Twombly, 550 U.S.
544, 556, 570 (2007). In the Anderson News case, it was decided that because
plaintiff is entitled to the benefit of the doubt, it is therefore ‘not the province of the
court to dismiss the complaint on the basis of the court’s choice among plausible
alternatives;’ rather, ‘the choice between or among plausible interpretations of the
evidence will be a tasks for the factfinders.’ In reviewing a complaint at the
pleading stage, the question is not ‘whether there is a plausible alternative to
plaintiffs theory; the question is whether there are sufficient factual allegations to
make the complaints claims plausible.’ Anderson News LLC v. am Media Inc., 680
F3d. 162, 185 (2d Cir. 2012), cert denied 133 S. Ct. 846 (2013). The Second Circuit’s
structuring of the appropriate questions pinpoint that because the plausibility
standard is lower than a probability standard, ‘there may therefore be more than
one plausible explanation of a defendant’s words or conduct. Accordingly, although
an unobjectionable interpretation of the defendant’s conduct may be plausible, that
does not mean that the plaintiffs allegations that the conduct was culpable is not
also plausible.’ Id. at 189-90.
Under FRCP 52(a), a judgment must be supported by findings of fact and
conclusions of law, as “In an action tried on the facts without a jury or with an

20

advisory jury, the court must find the facts specially and state its conclusions of law
separately. The findings and conclusions may be stated on the record after the close
of the evidence or may appear in an opinion or a memorandum of decision filed by
the court. In New York State, the review of findings of fact in all non-jury cases,
including jury waived cases, is assimilated to the equity review: York Mortgage
Corporation u. Clotar Const. Corp., 254 N.Y. 128, 133, 172 N.E. 265 (1930). For
examples of an assimilation of the review of findings of fact in cases tried without a
jury to the review at law as made in several states. Clark and Stone, Review of
Findings of Fact, 4 U. of Chi.L.Rev. 190, 215 (1937). In the Santosky case, the New
York Supreme Court affirmed the application of the preponderance of the evidence
standard as proper and constitutional in ruling that the parent’s rights are
permanently terminated.
FRAP 25 governs the filing of all papers, service of papers, manner of service
and proof of service in the Circuit Court. FRAP 25 (a) (1) provides: “A paper
required or permitted to be filed in a court of appeals must be filed with the clerk.”
Under FRAP 25 (b): “Unless a rule requires service by the clerk, a party must, at or
before the time of filing a paper, serve a copy on the other parties to the appeal or
review. Service on a party represented by counsel must be made on the party's
counsel.” The Court failed to demand that Respondent file and serve the required
documents prior to rendering its decision.
28 U.S.C. §1915(d) gives the courts "the unusual power to pierce the veil of
the complaint's factual allegations and dismiss those claims whose factual

21

contentions are clearly baseless." Under Section 1915(d), a factual frivolousness
finding is appropriate when the facts alleged rise to the level of the irrational or the
wholly incredible, whether there are judicially noticeable facts available to
contradict them, but a complaint cannot be dismissed simply because the court
finds the allegations to be improbable or unlikely. Because the frivolousness
determination is a discretionary one, a dismissal is properly reviewed for an abuse
of that discretion. In the Denton case, the Supreme Court held that the Court of
Appeals incorrectly limited the power granted the courts to dismiss a frivolous case
under § 1915(d). Thus, the court is not bound, as it usually is when making a
determination based solely on the pleadings, to accept without question the truth of
the plaintiffs allegations. However, in order to respect the congressional goal of
assuring equality of consideration for all litigants, the initial assessment of the
plaintiffs factual allegations must be weighted in the plaintiffs favor. It would be
appropriate for a Court of Appeals to consider, among other things, whether the
plaintiff was proceeding pro se, whether the district court inappropriately resolved
genuine issues of disputed fact, whether the court applied erroneous legal
conclusions, whether the court has provided a statement explaining the dismissal
that facilitates intelligent appellate review, and whether the dismissal was with or
without prejudice. With respect to the last factor, the reviewing court should
determine whether the District Court abused its discretion by dismissing the
complaint with prejudice or without leave to amend if it appears that the
allegations could be remedied through more specific pleading. Denton v. Hernandez,

22

504 U.S. 25 (1992). In the Conley case, the Supreme Court held that it was error for
the Courts to dismiss the Complaint for lack of jurisdiction. Conley v. Gibson, 355
U.S. 41, 45-46 (1957); In applying the Conley standard, the Court will “accept the
truth of the well-pleaded factual allegations in the Complaint.” In the Franklin
case, the Supreme Court ruled that victims may sue a school for monetary damages
and mandated that schools take corrective actions regarding discrimination for
violation of federal law in athletic programs.” Franklin v. Gwinnett County Public
Schools, 503 US 60, 112 S. Ct. 1028,117 L. Ed. (1992).
The Circuit Court’s Order is in contravention of FRAP, Local Rules and the
Supreme Court’s long standing precedents that gave birth to the plausibility
standard. It also places the Court at odds with the jurisprudence of other Circuit
Courts. The Second Circuit has essentially declared that it does not accept the facts
presented by Petitioner as truth although the Court is required to accept all factual
allegations made in the Complaint as truthful.
Upon information and belief, the following decisions conflict with standing
decisions of the Supreme Court and prior guidance of Circuit Courts: Kiobel v. Royal
Dutch Petroleum, 621 F. 3d 111 (2d Cir. 2010); Khulumani v. National Bank LTD,
504 f.3d at 277 (2d Cir. 2007); Kiobell II and Daimler v. Bauman, 143 S. Ct. 746
(2014); Michael H. u. Gerald, 491 U.S. 110 (1989); Hodgson v. Minnesota, 497 U.S.
417 (1990); Vernonia School District 47J v. Acton, 132 L.Ed.2d 564, 115 S.Ct. 2386
(1995); Am Jur 2d, Parent and Child § 10 (1987); H.L. v. Matheson, 450 US 398, 410
(1991); Parham v. J.R., 442 US 584, 602-606 (1979); Carey v. Population Services

23

International, 431 US 678, 684-686 (1977); Paris Adult Theater v. Slaton, 413 US
49, 65 (1973); Lehr v. Robertson, 463 US 248, 257-258 (1983); Thornburgh v.
American College of Obstetricians and Gynecologists, 476 US 747 (1986); City of
Akron v. Akron Center for Reproductive Health Inc., 462 US 416, 461 (1983J; Board
of Directors of Rotary International v. Rotary Club of Duarte, 481 US 537 (1987);
Maher v. Roe, 432 US 464, 476-479 (1977).
QUESTION 2.
FRAP 27 and Local Rule 27 deal with motions in the Circuit Court. Under
FRAP 27(3)(A): “Any party may file a response to a motion; Rule 27(a)(2) governs its
contents. The response must be filed within 10 days after service of the motion
unless the court shortens or extends the time.”
On May 29, 2020, Petitioner filed her Motion for Leave to Amend with the
Court of Appeals. On July 31, 2020, she filed an Amendment to her May 29th
Motion. Respondent did not respond and the Court failed to render a timely decision
on the Motion. It was filed on May 29, 2020 and denied on January 21, 2021 (7+
months after filing) without affording a hearing. The Court failed to sanction
Respondent for disregarding FRAP and Local Rules.
QUESTION 3.
FRCP 12 and Local Rule 6 govern motions in the District Court. FRCP 15
deals with Amended and Supplemental Pleadings. FRCP 60 allows a party to
motion the Court for relief from a judgment or order. According to FRCP and Local
Rules, all parties must serve and file a response to a motion within a specified
timeframe. FRAP 15 deals with Review or Enforcement of an Agency Order.
24

The Eastern District of New York has expressed that there is “little practical
difference between Rules 15 and 21, since they both leave the decision whether to
permit or deny an amendment to the District Court’s discretion;” Amaya v.
Roadhouse Brick Oven Pizza, Inc., 285 FRD 251, 253 (E.D.N.Y. 2012), courts have
actually granted motions to amend that add or subtract parties pursuant to both
those rules. Hernandez v. Sikka, No. 17 CV 4792SJFSIL, 2019 WL 1232092, at * 5
(E.D.N.Y. March 15, 2019). In Hernandez u. BMNY Contracting Corp., No. 17 CIV.
9375 (GBD), 2019 WL 418498, at * 1 (S.D.N.Y. January 17, 2019), the court opted to
apply Rule 21 rather than Rule 15, when it was deciding plaintiffs request to add
new parties without asserting new claims. Where Rule 15(a) is concerned, the
United States Supreme Court has determined that (([i]n the absence of ... undue
delay, bad faith or dilatory motive ... futility of amendment, etc. - the leave sought
should ... be freely given.” Foman u. Davis, 371 U.S. 178, 182 (1962).
FRCP 60(b)(2) allows a party to motion the court for relief based on newlydiscovered evidence that with reasonable diligence could have been discovered.
Klapprett v. United States, 335 U.S. 601, 615 (1949). Relief under Rule 60(b)(6) is an
“extraordinary remedy,” and in order to succeed under Rule 60(b)(6), one must
make a showing of “extraordinary or exceptional circumstances.” Neimaizer v.
Baker, 793 F.2d 58, 61 (2d. Cir. 1986). The Second Circuit has spelled out that in
deciding a Rule 60(b)(6) motion, the court must generally balance the policy in favor
of hearing a litigant’s claim on the merits against a policy in favor of finality. Courts
overall require that the evidence being offered in support of a motion to vacate a

25

judgment pursuant to Rule 60(b) be highly convincing and to ensure that such
evidence does not impose undue hardship on other parties. Kotlicky v. U.S. Fidelity
and Guar. Co., 817 F. 2d 6, 9 (2d Cir., 1987). In Pierce, the Court of Appeals for the
Six Circuit remanded Pierce’s case to the Trustees for consideration of the
additional evidence Pierce had submitted to support his claim that his work-related
injury disabled him from further work in the coal industry. Pierce v. United Mine
Workers of America Welfare & Retirement Fund for 1950 & 1954, 770 F.2d 449 (6th
Cir. 1985).
On February 24, 2020, Petitioner filed a Motion to Vacate the Judgment with
the District Court pursuant to FRCP 60(b). She introduced highly convincing
evidence in support of her Motion that should have been considered by the Court to
move for a new trial. Pt.App.34-36. Respondent did not answer. The Court denied
the Motion on March 11, 2020 without affording Petitioner an opportunity to be
heard on the issues presented to them for review on the merits. The Court failed to
enforce compliance with FRCP and Local Rules. No sanctions were imposed.
QUESTION 4.
FRAP 12 deals with Docketing the Appeal, Filing Representation Statement,
and Filing the Record. Local Rule 12.3 governs Acknowledgement and Notice of
Appearance Form in Appeals. Rule 12.3(a) Acknowledgment and Notice of
Appearance Form: “Within 14 days after receiving a docketing notice from the
circuit clerk assigning a docket number and enclosing a copy of the appellate docket
sheet, all parties must file the Acknowledgment and Notice of Appearance Form.”
Rulel2.3 (c) Failure to Comply: “The Petitioner's failure to take any of the above
26

actions may result in dismissal of the appeal. The appellee's failure to take any of
the above actions may bar the appellee from being heard on the appeal.”
Unequal application of the justice system is evident in this case. On
May 26, 2020, Petitioner filed her Acknowledgment and Notice of Appearance Form
with the Circuit Court. Respondent failed to do so, in violation of FRAP and Local
Rules. The Court failed to enforce compliance. Are standards the same for Pro
Se litigants and big corporations? Are there different systems of justice?
QUESTION 5.
Local Rule 31.2 deals with Briefing Schedule, Regular and Expedite Appeals
Calendars. Rule 31.2(a) Briefing Schedule: “Except for appeals on the Expedited
Appeals Calendar discussed in (b), the parties must submit scheduling requests for
filing briefs in accordance with the procedures described.” Rule 31.2(d) Failure to
File: “The court may dismiss an appeal or take other appropriate action for failure
to timely file a brief or to meet a deadline under this rule.”
The Circuit Court ignored controlling principles of law when rendering its
decision. On June 5, 2020, Petitioner submitted her Briefing Schedule. Respondent
failed to do so, in contravention of FRAP and Local Rules. The Circuit Court failed
to ensure compliance and sanction, requiring vacatur of the judgment by this Court.
QUESTION 6.
FRAP 31 governs serving and filing Briefs. FRAP 31(a)(1) TIME TO SERVE AND
FILE

a

BRIEF: “The Petitioner must serve and file a brief within 40 days after the

record is filed. The appellee must serve and file a brief within 30 days after the
Petitioner's brief is served. The Petitioner may serve and file a reply brief within 21
27

days after service of the appellee's brief but a reply brief must be filed at least 7
days before argument, unless the court, for good cause, allows a later filing. FRAP
31(c) Consequence OF Failure

to

File: “If an appellant fails to file a brief within

the time provided by this rule, or within an extended time, an appellee may move to
dismiss the appeal. An appellee who fails to file a brief will not be heard at oral
argument unless the court grants permission.”
On August 27, 2020, Petitioner filed her Brief and Appendix. Respondent
failed to do so, in disregard of FRAP 31 and Local Rule 31.2. The Circuit Court did
not demand an answer and impose sanctions for non-compliance. The fact the
Respondent did not answer suggests agreement with Petitioner’s claims
and evidence. “Silence is acceptance.” A default judgment was warranted.
QUESTION 7.
FRCP 15 deals with amendments and supplemental pleadings during and
after trial. FRCP 25 governs the substitution of parties. Pursuant to FRCP 15, a
party may move at any time, even after judgment to amend the pleadings to
conform them to the evidence and to raise an unpleaded issue. Supplementation
may be permitted although the original pleading is defective in stating a claim or
defense. Rule 15(a) provides that the “court should freely give leave [to amend]
when justice so requires.” The “liberality in granting leave to amend applies to
requests to amend a complaint to add new parties.” Brown v. Kelly, 244 F.R.D. 222,
227 (S.D.N.Y. 2007), affd in part, vacated in part on other grounds, 609 F.3d 467
(2d Cir. 2010). In interpreting Rule 15(a), the Second Circuit has explained that
“district courts should not deny leave unless there is a substantial reason to do so,
28

such as excessive delay, prejudice to the opposing party, or futility.” Friedl v. City of
New York, 210 F.3d 79, 87 (2d Cir. 2000); Block v. First Blood Assocs., 988 F.2d 344,
350 (2d Cir. 1993) (“The rule in this Circuit has been to allow a party to amend its
pleadings in the absence of a showing by the non-movant of prejudice or bad faith.”).
Because it will promote the interests of justice and given the lack of undue prejudice
to the current defendant of adding these new parties and related allegations,
allowing amendment of the complaint is entirely in keeping with the liberal
amendment policies of the FRCP as interpreted by the Second Circuit. Permitting
amendment of the complaint to assert new pleadings, modify the caption of the case,
add parties and pursue relief based on new relevant facts learned during the
pendency of this case will serve the interests of justice. As this Court has explained,
there is a well-established “presumption in favor of granting leave” to amend under
Rule 15. Sigmund v. Martinez, No. 06 CIV. 1043 RWS MHD, 2006 WL 2016263, at
*1 (S.D.N.Y. July 13, 2006) (citing Foman v. Davis, 371 U.S. 178, 182 (1962)); In re
United Brands Co. Sec. Litig., No. 85 CIV. 5445 (JFK), 1990 WL 16164, at *2
(S.D.N.Y. Feb. 15, 1990). The United States District Court for the Eastern District
of Washington has also recognized that the good standard for amendment of
pleadings applies to a party who is seeking relief for good cause when in Write v.
United States granted plaintiffs’ motion for leave to file amended complaint. Write
v. United States, No. 2:15-cv-0305-TOR. Given the presumption that granting leave
favors the interests of justice, “it is rare that such leave should be denied, especially
when there has been no prior amendment to include new claims and add other

29

parties.” Ricciuti v. N.Y.C. Transit Auth., 941 F.2d 119, 123 (2d Cir. 1991). Courts
in this District have repeatedly followed this same principle, granting leave to
amend where the movant has uncovered new evidence through discovery and acted
on that information without undue delay. In S.E.C. v. DCI Telecommunications,
Inc., 207 F.R.D. 32, 33-34 (S.D.N.Y. 2002), the court granted the plaintiffs’ motion
to amend to add new facts learned approximately three months prior in discovery.
Even when plaintiffs learn new information many months or even years into a
proceeding, this Court has allowed amendment based on new evidence uncovered
during discovery, e.g., Soroof Trading Dev. Co. v. GE Microgen, Inc., 283 F.R.D. 142
149 (S.D.N.Y. 2012) (allowing amendment one year and seven months after initial
deadline for amendment where amendment was based on new facts learned during
discovery and plaintiff added no new claims for relief); Am. Med. Assn v. United
Healthcare Corp., No. 00CIV28Q0LMM, 2006 WL 3833440, at *4 (S.D.N.Y. Dec. 29,
2006) (allowing amendment of complaint two-and-a-half years after the previous
complaint to add new claims because “the basis for Plaintiffs’ Proposed
Amendments was formed, at least in part, during ... discovery”). Like all of these
cases, Appellant seeks leave to amend based on material new information
learned during the pendency of this case.
There are two Plaintiffs of record. The fact that the adverse action against
Julian was not communicated to Petitioner infringed upon her XIV Amendment
rights. Her claims, are meritorious. Respondent acknowledged that Petitioner
is a party to this action. Appellee’s Response Brief at 14 under Docket No. 1630

4315. The Courts refer to Aura as Plaintiff. Petitioner considers herself a direct
victim who has been damaged and suffered as a result of Respondent’s actions, and
she obviously has an interest that is affected by the Court’s judgment. Hispanic
Soc’y of the N.Y. City Police Dep’t u. N.Y. City Police Dep’t, 806 F.2dll47, 1152 (2d
Cir. 1986). Petitioner has been anguished and invested a great amount of time and
money, as recognized by Judge Block at the Status Conference.
On July 7, 2015, Petitioner’s name was abruptly removed from the caption of
the case although she has viable claims. She was not served with a substitution of
parties and/or transfer of interest motion, together a notice of hearing. Petitioner
was not afforded an opportunity to immediately appeal. Julian was pressured to
settle this case. Upon learning about the removal, Petitioner attempted to have her
name restored to assert her own claims but was ignored by the Court.
Under the ADA, Section 504, IDEA and XIV Amendment, a parent may
assert claims on her own behalf in federal court. Cent. States Se. Areas Health &
Welfare Fund v. Merck-Medco Managed Care, LLC, 433 F.3d 181 (2d Cir., 2005).
Citing Winkelman v. Parma City Sch. Dist., 500 U.S. 516 (2007), the Court asserts
that the Supreme Court held that parents have standing to prosecute IDEA claims
on their own behalf. Section 1983 also provides remedy for Constitutional
violations. Crispim v. Athanson, 275 F. Supp. 2d 240, 244 (D. Conn. 2003). In the
Fitzgerald case, the Supreme Court ruled that the victim, in addition to seeking
money damages from the school and school officials based on their violation of Title
IX, may also seek money damages for violations on their rights under the Equal
31

Protection Clause of the XIV Amendment using a federal law titled 42 U.S.C.
§ 1983, that provides for civil damages against institutions and representatives.
Fitzgerald v. Barnstable School Committee, US 246 (2009).
QUESTION 8.
Julian was forced to settle this case. Should have Petitioner been consulted
before Julian secretly signed the agreement, the outcome would have been different.
Such notice would have afforded Petitioner an opportunity to rebut the decision
prior to the dismissal of this action. The lower Courts erred by not declaring a
mistrial and reopening this case to allow Aura and Julian to re-plead their claims.
One of Petitioners newly discovered evidence is a text message that Julian
sent to Petitioner just over 3 months after this case was closed via Stipulation.
The text states as follows: “Mom. Can please stop with the lawsuit. Because
they are going to make me pay lawyer fees if you continue. Stop. Let it go.
Please just move on. Its not funny anymore.” Pt.App.36. The text appears to
indicate that Julian was threatened with attorney’s fees by someone involved in this
action. Whatever the case may be, no one has a right to threaten Julian because
Petitioner is exercising her rights to continue this case. Petitioner believes that the
text from Julian presents an extraordinary circumstance of a real fear on his part
and a threat of imposition of attorney’s fees that such fear actually prompted him to
write the text. Such action on the part of the other party makes one believe that
Julian was also pressured to sign the settlement that led to the closure of this case.
Petitioner believes that Counsel colluded with Respondent to dupe Julian into

32

signing a settlement. Moreover, Petitioner infers these acts as retaliation and
obstruction of justice. Respondent nor Counsel contested Petitioner’s assertions.
On the grounds of new-found evidence discovered after the settlement,
Petitioner respectfully asks this Court to compel Respondent to produce
all type of documents-correspondence-logs related to the mediation and
settlement of this case, as well as the documents pertaining to the DO J and
OCR Complaints. They may be highly probative of Respondent’s intent and
strategy used to have Julian sign the settlement and dismiss Aura’s Complaints.
QUESTION 9.
The Supreme Court has acknowledged several family-related rights
including the rights of parents to raise their children as they see fit. As the parent
of Julian, Petitioner is compelled to advocate on his behalf. In the Santosky case,
the Court recognized a “fundamental liberty interest of natural parents in the care,
custody, and management of their child.” Parents also have a fundamental right to
keep their family together, as well as to control the upbringing of their children.
Santosky v. Kramer, 455, US (1982). In the Pierce case, the Supreme Court also
upheld this fundamental right. Pierce v. Society of Sisters, 268 U.S. 510 (1925).
Pursuant to the New York General Obligations Law, a person can
assign an agent to act on his behalf after signing a Power of Attorney before a
notary public. If the person is revoking or terminating the agent’s power of attorney
he should provide written notice of the revocation to the prior agent(s) and to any

33

third parties who may have acted upon it, including the financial institutions where
the accounts are located.
Julian provided Petitioner with a Power of Attorney to act on his behalf, but
she was excluded during mediation and settlement despite Julian instructing
Counsel that settlement had to be discussed with Petitioner, as verified by an email
sent to Ms. Moody by Ms. Kpitanova on July 24, 2015. Docket Entry No. 24.Exh.13.
Petitioner was not formally informed by the Court or Counsel that she did not have
representative capacity to assert claims on Julian’s behalf. She was not notified
when the case was closed. The disregard of the Power of Attorney prejudiced the
rights of Petitioner and Julian’s ability to resolve this case on the merits and to his
benefit. Pt.App.32-33,37-39,44.
QUESTION 10.
Petitioner has a valid due process claim since she was not given notice by the
NFL, DOE or PSAL of the action taken against Julian. Contrary to Mr. Porter’s
assertions, Petitioner believes that all agencies have a role to play in Respondent’s
adverse action against Julian, a student attending a public school. Respondent was
timely notified by Petitioner of the violations and did nothing to correct the
situation. Appendix to Appellant’s Brief at 28-62,66-70; Pt.App. 16,40-41,44.
The Due Process Clause is meant to ensure that the procedures by which
laws are applied are evenhanded to prevent arbitrary exercise of power. Hagar u.
Reclamation Dist., Ill U.S. 701, 708 (1884). It is also meant to minimize

34

substantially unfair or mistaken deprivation of one’s protected interests. Fuentes v.
Shevin, 407 U.S. 67, 81 (1972).
Under the Fifth and Fourteenth Amendments, neither the federal nor state
governments may deprive any person “of life, liberty, or property without due
process of law.” The Court held in Truax v. Corrigan, 257 US 312, 42 SCt. (1921)
that “The due process clauses require that every man shall have the protection of
his day in court, and the benefit of the general law, a law which hears before it
condemns, which proceeds not arbitrarily or capriciously, but upon inquiry, and
renders judgment only after trial, so that every citizen shall hold his life, liberty,
property and immunities under the protection of the general rules which govern
society.” These clauses provide for certain procedures and provision of notices.
QUESTION 11.
The Supreme Court has consistently protected parental rights, including
those rights deemed fundamental. Petitioner is a Black Hispanic woman. The
Equal Protection Clause of the XIV Amendment requires that similarly situated
people be treated in the same manner. Likewise, the equal protection clause states
that no State shall deny to any person within its jurisdiction the equal protection of
the law. To set forth a claim pursuant to 42 U.S.C. Section 1983, plaintiff must
plead that the defendants violated statutory or constitutional rights. Chan v. City of
New York, 1 F3d 96, 102 (2d Cir. 1993). As a fundamental right, parental liberty is
to be protected by the highest standard of review: the compelling interest test. The
Court decisively confirmed these rights in the case of Troxel v. Granville.

35

Petitioner was deprived of her XIV Amendment rights to be treated equally
on the issues presented for review. Her rights were violated here in that the equal
protection clause requires that similarly situated people be treated in the same
manner. Respondent and its servants (some of whom worked for the DOE) subjected
Petitioner to capricious and irrational treatment as she persisted in her attempts to
find out the true reason behind the decision against Julian, causing her mental
anguish/emotional distress. Petitioner would have been treated fairly if she was
Caucasian or male. Appendix to Appellant’s Brief at 28-62. Pt.App. 16,40-41,44. The
Courts were cognizant of Petitioner’s discrimination claims based on race, national
origin and gender, but failed to address them.
QUESTION 12.
We the People are entitled to petition the government for our grievances.
Before Petitioner embarked in this lawsuit, she filed Complaints with OCR and the
DOJ seeking for redress. Both agencies disregarded the investigation procedures
and improperly closed the cases. They are complicit and should be added as parties
to this action. Appellant’s Motion for Leave to Amend, Exhibits 2-3; Pt.App. 4041,45. The lower Courts did not address/make a determination on this issue.
Petitioner believes that the Circuit Court’s decision contradicts and/or
ignores the mandate of long-standing decisions by the Supreme Court, the Second
Circuit and other Circuit Courts regarding constitutional rights violations. The
Supreme Court has granted motions to amend that add or subtract parties
pursuant to Rule 15.” Foman v Davis, 371 U.S. 178, 182 (1962). Upon information

36

and belief, Court decisions related to this case-claim are: Amaya u. Roadhouse Brick
Oven Pizza, Inc., 285 FRD 251, 253 (E.D.N.Y. 2012); Hernandez v. Sikka, No. 17 CV
4792SJFSIL, 2019 WL 1232092, at * 5 (E.D.N.Y. March 15, 2019); Hernandez v.
BMNY Contracting Corp., No. 17 CIV. 9375 (GBD), 2019 WL 418498, at * 1
(S.D.N.Y. January 17, 2019).
QUESTION 13.
According to 22NYCR§1210.1, clients are entitled to be treated with courtesy
and consideration by their lawyer; to have him/her handle their legal matter
competently and diligently, in accordance with the highest standards of the
profession; to have their lawyer’s independent professional judgment and undivided
loyalty uncompromised by conflicts of interest; to be kept informed as to the status
of their matter and to promptly comply with their requests for information to allow
them to participate meaningfully in their matter and make informed decisions.
Petitioner believes that Respondent and Counsel engaged in improprieties in
this legal process, in violation of their own policies and Code of Ethics/Rules of
Professional Conduct. For instance, Respondent failed to honor the terms and pre­
requisites of the mediation. On January 13, 2017, Respondent attempted to obstruct
justice by threatening Petitioner with the payment of Attorneys’ fee and expenses
incurred in connection with any appeal of the December 12th Court Order.
Pt.App.34-35. Although Julian had settled this case, on January 24, 2017, someone
contacted and threatened him with payment of legal fees if Petitioner continued
with this lawsuit. Pt.App.36. Our Counsel of record misrepresented our interests.

37

They failed to follow Petitioner’s directives, failed to secure Julian a fair settlement,
disregarded the Power of Attorney, removed Petitioner’s name from caption of the
case without approval and failed to add other parties to the Amended Complaint
just to quote some examples. Pt.App.32-44. Counsel’s behaviors are reprehensible
and violate the NYS Bar Association’s Code of Ethics that governs attorney’s
professional conduct. Counsel for both parties should be disqualified for being
neglectful, untruthful and disloyal. Respondent and Counsel have not refuted her
assertions. Petitioner timely notified the lower Courts of these irregularities but did
nothing to correct these bad actors’ practices. Petitioner should not be
penalized for our Counsel’s misrepresentation while litigating this case.
QUESTION 14.
Judges are expected to be independent actors on the bench. 28 U.S.C. § 455
(a) requires that any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might reasonably be
questioned. The congressional goal of assuring equality of consideration for all
litigants has not been observed in this case.
Petitioner believes that the Judges have favored Respondent when
rendering their decisions despite non-compliance with FRCP, FRAP and
Local Rules. Such actions might contravene Section 455(a)’s language and its
purpose of promoting public confidence in the integrity of the judicial system. They
have not been impartial when interpreting and applying the rule of law. They
disregarded the relevant facts and evidence in the record. They denied Petitioner a

38

fair opportunity to litigate her claims and prevented her from receiving adequate
redress. They denied her a hearing. They failed to demand Respondents’ responses
and impose sanctions. They should have been disqualified from this proceeding, but
the Circuit Court did not address Petitioner’s request. It is undisputable that the
NFL is a powerful organization, but it should not be above the law.
Petitioner would like the Court to take judicial notice that Respondent has
taken action when incidents involving publicity have occurred. For instance, in
2017, when the controversy over the National Anthem arose, the NFL took a
position on the players who refused to honor our flag and country. In 2020,
Respondent endorsed the Black Lives Matter movement. In this case, the NFL and
its executives knew about Julian’s civil rights violations but failed to act and make
corrections. ALL LIVES MATTER! Upon information and belief, this case paved
the way to the implementation of new policies in New York City, New York
State and perhaps nationwide. During its pendency, the NFL, DOE and PSAL
revised/created policies and launched new programs in response to the issues raised
by Petitioner. The NFL updated the HSPD rules. The PSAL set forth
procedures for recruitment of students-athletes, staff conduct and appeal.
The DOE enacted Chancellor’s Regulations A-830 and A-421 setting forth
anti-discrimination policies and internal review procedures. Pt.App.246-256 under
Docket No. 18-393; Agencies’ Websites. The fact that these organizations have
taken action to correct these misdeeds suggests acknowledgment of wrongdoing on
their part that has not been rectified in this case. In all humility, it is entirely

39

plausible that these changes have been made because of the instant case
(Moody vs NFL). However, Petitioner has not been acknowledged or given credit.
Based on the forgoing, Petitioner submits and prays that this Court
reverse the rulings of the lower Courts and that this case be sent back to
the District Court for trial on the merits, as a matter of justice.
An exhaustive review of the history of this case shows that Respondent has
shown a lack of respect for the rule of law, Petitioner, Julian and the Courts.
Petitioner respectfully requests that this Court order Respondent to file
and serve a response to this Petition, as well as a Notice of Appearance of
Counsel of Record, as per statutory mandates.

CONCLUSION
The Petition for a Writ of Certiorari should be granted.
Respectfully submitted,
AURA MOODY
Pro Se Petitioner
112-26 197th Street
Saint Albans, NY 11412
(718) 465-3725
quinonesmoody@aol.com

Dated:

June 18, 2021
Saint Albans, New York

40

